UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1184

Jesus Adam Lizarraga
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the Northern District of Iowa - Waterloo
(6:18-CV-02070-LRR)
JUDGMENT

Before LOKEN, SHEPHERD, and STRAS, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied.
The motion for leave to proceed on appeal in forma pauperis is denied as moot. The appeal
is dismissed.
June 16, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
Appellate Case: 20-1184

Page: 1

Date Filed: 06/16/2020 Entry ID: 4924295

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
EASTERN DIVISION
JESUS ADAM LIZARRAGA,
No. 18-CV-2070-LRR
15-CR-2027-LRR

Petitioner,
vs.

ORDER

UNITED STATES OF AMERICA,
Respondent.

I. INTRODUCTION
The matters before the court are Petitioner Jesus Adam Lizarraga’s (“the movant”)
pro se Motion to Vacate, Set Aside or Correct Sentence under 28 U.S.C. § 2255
(“Motion”) (docket no. 1), which was filed on September 7, 2018; and pro se Motion
for Status Conference (docket no. 2), which was filed on August 26, 2019.
The movant raises one claim in his § 2255 motion. Specifically, the movant asserts
that he did not knowingly, intelligently and voluntarily enter his guilty plea in this matter
due to ineffective assistance by his counsel. See Motion at 4. The movant claims that
counsel was “deficient for providing [him] with a gross misrepresentation of the likely
sentencing consequences of his plea.” Id. at 19. According to the movant, counsel
promised him that he “would receive a sentence of no more than 18 years’ imprisonment
if he accepted the [government’s] plea offer.”

Id.

The movant maintains that

“[c]ounsel’s gross misrepresentation of the likely sentencing consequences of the plea fell
below the minimum level of competence . . . and was professionally unreasonable.” Id.
at 24-25.

Case 6:18-cv-02070-LRR-MAR Document 3 Filed 12/03/19 Page 1 of 9

II. PERTINENT BACKGROUND FACTS
On September 15, 2015, the grand jury returned a four-count Superseding
Indictment (criminal docket no. 15), charging the movant with conspiracy to distribute a
controlled substance in violation of 21 U.S.C. § 846 (Count I); distribution of a controlled
substance in violation of 21 U.S.C. §§ 841(a)(1) and 841(b)(1)(A) (Counts II and III);
and money laundering in violation of 18 U.S.C. § 1956(a)(3)(B) (Count IV).

See

Superseding Indictment at 1-3.
The movant entered into a plea agreement with the government. See Government
Exhibit 1 (criminal docket no. 30). The plea agreement provided that the movant would
plead guilty to Counts I and IV of the Superseding Indictment. See id. at 1, f 1. In the
plea agreement, the movant acknowledged that Count I of the Superseding Indictment
was punishable by a mandatory minimum sentence of 10 years’ imprisonment and a
maximum life term of imprisonment. Id., f 2. The movant also acknowledged that
Count IV of the Superseding Indictment was punishable by not more than 20 years’
imprisonment. Id., 1 3. The movant agreed that, discussions during plea negotiations
“did not result in any express or implied promise or guarantee concerning the actual
sentence to be imposed by the [cjourt.” Id. at 7, f 11. Further, the movant agreed that
“the [cjourt is not bound by the stipulations of the parties, nor is it bound by the
sentencing range as determined pursuant to the sentencing guidelines.

This plea

agreement provides no guarantee concerning the actual sentence to be imposed.” Id.
The movant acknowledged that the parties “have no agreement on whether an upward
adjustment for aggravating role applies.” Id. at 8, 1 12(B). The movant agreed that he
understood that the government believed that, “as to Count 1, [the movant] was an
organizer, leader, manager, or supervisor in the criminal activity” and “[tjhe parties are
free to present evidence and argument on this issue.” Id. The movant acknowledged
that he read “each of the provisions of this entire plea agreement with the assistance of
counsel and understands its provisions.” Id. at 12, f 25. The movant agreed that his
“attorney has represented [him] in a competent manner and has no complaints about that
2
Case 6:18-cv-02070-LRR-MAR Documents Filed 12/03/19 Page 2 of 9

lawyer’s representation.” Id. The movant stated that he was not on or under “the
influence of, any drug, medication, liquor, or other substance, whether prescribed by a
physician or not, that would impair [his] ability to fully understand the terms and
conditions of this agreement.” Id. Finally, the movant acknowledged that he was:
entering into this plea agreement and is pleading guilty freely and
voluntarily because [he] is guilty and for no other reason. [The movant]
further acknowledges [he] is entering into this agreement without reliance
upon any discussions between the government and [himself] (other than
those specifically described in this plea agreement), without promise of
benefit of any kind (other than any matters contained in this plea
agreement), and without threats, force, intimidation, or coercion of any
kind. [The movant] further acknowledges [his] understanding of the nature
of each offense to which [he] is pleading guilty, including the penalties
provided by law.”
Id. at 12-13, 1 27.
A plea change hearing was held on November 2, 2015. See November 2, 2015
Minute Entry (docket no. 27). At the hearing, the movant: (1) indicated that he would
let the court know if he did not understand something; (2) indicated that there was no
reason that he would have difficulty understanding the proceedings; (3) acknowledged
that he had a chance to discuss the charges in detail with his counsel and was satisfied
with his counsel’s representation; (4) admitted that he was part of a conspiracy to
distribute 500 grams or more of a mixture containing 50 grams or more of actual (pure)
methamphetamine; and admitted that he engaged in a financial transaction with the intent
to conceal or disguise the nature, location, source, ownership, or control of the money
which he believed constituted proceeds from drug activity; (5) admitted that he entered
into a plea agreement that he reviewed in detail with counsel, understood and had no
questions about; (6) reiterated that the information set forth in the stipulation of facts
portion of the plea agreement was true and correct; (7) indicated that he understood he
faced a mandatory 10-year prison term with a maximum term of life imprisonment on
Count I and a maximum 20-year term of imprisonment on Count IV, understood that the
3
Case 6:18-cv-02070-LRR-MAR Documents Filed 12/03/19 Page 3 of 9

court could vary or depart from the advisory sentencing guidelines range and understood
that he could receive a maximum sentence, that is a life sentence; (8) acknowledged that
he could not withdraw his guilty plea once it was accepted by the court; (9) affirmed that
he did have any questions about the sentencing procedure; (10) indicated that no one
forced or pressured him to plead guilty; (11) indicated that his guilty plea was voluntary;
and (12) reaffirmed that he understood everything and had no questions regarding the
plea change proceedings. See generally Plea Change Hearing Transcript (criminal docket
no. 66) at 5-25.
With respect to the presentence investigation report (“PSR”) (criminal docket no.
37), the report calculated the movant’s base offense level for Count I of the Superseding
Indictment at 38. See PSR at 8, 1 19. The movant did not object to the base offense
level calculation for Count I.

The PSR included an additional three-level upward

adjustment for the movant’s role in the offense. See id., 1 22. The movant objected to
the three-level increase. Id. With the additional three levels, the movant’s adjusted
offense level was 41. Id. at 9,124. With three levels off for acceptance of responsibility,
the movant had a total offense level of 38. Id.,

26-28. Based on a total offense level

of 38 and a criminal history category of I, the movant’s sentencing guidelines range was
235 months to 293 months’ imprisonment. Id. at 20, 1 78.
A sentencing hearing was held on February 22, 2016. See February 22, 2016
Minute Entry (criminal docket no. 42). At the sentencing hearing, the court reiterated
the maximum penalty for Count I of the Superseding Indictment, and the movant
maintained that he was guilty, that he had a chance to go over his concerns about the PSR
with counsel and that he understood the proceedings. See generally Sentencing Transcript
(criminal docket no. 57) at 2. With respect to the three-level increase for the movant’s
role in the offense, the court listened to the parties’ arguments, and determined that the
PSR was properly scored, including the three-level increase for role in the offense. See
id. at 3-4.

The court advised that, with a three-level decease for acceptance of

responsibility and based on a total offense level of 38 with a criminal history category of
4
Case 6:18-cv-02070-LRR-MAR Document 3 Filed 12/03/19 Page 4 of 9

I, the movant’s sentencing guidelines range was 235 months to 293 months’
imprisonment. Id. at 4. After announcing the guidelines range, the court allowed the
movant his right of allocution. Id. at 5. The movant did not address the guidelines range
during allocution. The court sentenced the movant to 264 months’ imprisonment on
Count I of the Superseding Indictment and 240 months’ imprisonment on Count IV of the
Superseding Indictment, with the sentences to run concurrently. Id. at 7. Finally, the
court informed the movant of his right to appeal the court’s decision. Id. at 8.
On March 7, 2016, the movant timely filed a notice of appeal. See Notice of
Appeal (criminal docket no. 47). On appeal, the movant challenged his sentence. See
United States v. Lizarraga, 683 Fed. App’x 529, 530 (8th Cir. 2017). The Eighth Circuit
Court of Appeals found that the court’s three-level adjustment for the movant’s role in
the offense was appropriate. See id. at 532-33. The Eighth Circuit also determined that
the court properly calculated the sentencing guidelines range and adequately explained its
sentencing decision. Id. at 533-34. The Eighth Circuit affirmed the movant’s judgment
and sentence. Id. at 534. On appeal, the movant did not raise any argument that his
counsel promised him that he would not receive a sentence over 18 years’ imprisonment
if he pled guilty.
III. ANALYSIS
It is clear from the record that the movant knowingly and voluntarily pled guilty
pursuant to a plea agreement. See Walker v. United States, 115 F.3d 603, 604 (8th Cir.
1997) (“[A] valid guilty plea forecloses an attack on conviction unless ‘on the face of the
record the court had no power to enter the conviction or impose the sentence.’ United
States v. Vaughan, 13 F.3d 1186, 1188 (8th Cir. 1990)”); United States v. Jennings, 12
F.3d 836, 839 (8th Cir. 1994) (a voluntary and unconditional guilty plea waives all
defects except those related to jurisdiction). Given the movant’s stipulations in his plea
agreement, his oral confirmation of those stipulations at the plea change hearing, the
unobjected-to facts in the PSR and his oral confirmation of the stipulations in the plea
agreement at the sentencing hearing, a sufficient basis supports the movant’s guilty plea.
5
Case 6:18-cv-02070-LRR-MAR Document 3 Filed 12/03/19 Page 5 of 9

In collateral proceedings based on 28 U.S.C. § 2255, “[ijssues raised and decided
on direct appeal cannot ordinarily be relitigated.” United States v. Wiley, 245 F.3d 750,
751 (8th Cir. 2001); see also Bear Stops v. United States, 339 F.3d 111, 780 (8th Cir.
2003) (“It is well settled that claims which were raised and decided on direct appeal
cannot be relitigated on a motion to vacate pursuant to 28 U.S.C. § 2255” (quoting Untied
States v. Shabazz, 657 F.2d 189, 190 (8th Cir. 1981))); Dali v. United States, 957 F.2d
571, 572-73 (8th Cir. 1992) (concluding that claims already addressed on direct appeal
could not be raised); United States v. Kraemer, 810 F.2d 173, 177 (8th Cir. 1987)
(concluding that a movant could not “raise the same issues . . . that have been decided
on direct appeal”). With respect to a claim that has already been conclusively resolved
on direct appeal, the court may only consider the same claim in a collateral action if
“convincing new evidence of actual innocence” exists. See Wiley, 245 F. 3d at 752 (citing
cases and emphasizing the narrowness of the exception).
Similarly, movants ordinarily are precluded from asserting claims that they failed
to raise on direct appeal. See McNeal v. United States, 249 F.3d 747, 749 (8th Cir.2001);
see also United States v. Frady, 456 U.S. 152, 167-68 (1982) (providing that a movant
is not able to rely on 28 U.S.C. § 2255 to correct errors that could have been raised on
direct appeal); United States v. Samuelson, 722 F.2d 425, 427 (8th Cir. 1983)
(concluding that a collateral proceeding is not a substitute for a direct appeal and refusing
to consider matters that could have been raised on direct appeal). “A [movant] who has
procedurally defaulted a claim by failing to raise it on direct review may raise that claim
in a [28 U.S.C. §] 2255 proceeding only by demonstrating cause for the default and
prejudice or actual innocence.” McNeal, 249 F.3d at 749; see also Massaro v. United
States, 538 U.S. 500, 504 (2003) (“[T]he general rule [is] that claims not raised on direct
appeal may not be raised on collateral review unless the [movant] shows cause and
prejudice.”). “‘[C]ause’ under the cause and prejudice test must be something external
to the [movant], something that cannot fairly be attributed to him.”

Coleman v.

Thompson, 501 U.S. 722, 753 (1991). If a movant fails to show cause, a court need not
6
Case 6:18-cv-02070-LRR-MAR Document 3 Filed 12/03/19 Page 6 of 9

consider whether actual prejudice exists. See McClesky v. Zant, 499 U.S. 467, 501
(1991). Actual innocence under the actual innocence test “means factual innocence, not
mere legal insufficiency.” Bousley v. United States, 523 U.S. 614, 623 (1998).
To the extent that the movant is asserting that his counsel provided ineffective
assistance by failing to advise him that he was subject to a three-level upward adjustment
for his role in the offense, there is no basis in the record for such an assertion. The plea
agreement states that the issue would be litigated at sentencing. The movant and counsel
clearly discussed the issue, as counsel objected to the three-level adjustment in the PSR.
Further, the parties argued the issue at the sentencing hearing. Moreover, the issue was
raised on direct appeal, and the Eighth Circuit determined that the court’s three-level
adjustment for the movant’s role in the offense was appropriate. See Lizarraga, 682 Fed.
App’x at 532-33.

Because the movant raised this issue on direct appeal, his claim

pursuant to 28 U.S.C. § 2255 is procedurally defaulted.
To the extent that the movant is asserting that his counsel promised him that he
would not receive a sentence above 18 years’ imprisonment for pleading guilty, the
movant’s assertion, again, has no basis in the record. The plea agreement explicitly
provided that the movant’s maximum term of imprisonment on Count I of the Superseding
Indictment was life imprisonment. The movant acknowledged at both the plea change
hearing and at the sentencing hearing that the maximum sentence on Count I of the
Superseding Indictment was life imprisonment. Further, at the sentencing hearing, prior
to allocution, the court informed the movant that his sentencing guidelines range was
235-293 months’ imprisonment. The movant did not object to the guidelines sentencing
range during allocution or raise any issue regarding the length of his sentence at the
sentencing hearing. Moreover, the movant did not raise any issue regarding counsel’s
alleged promise that he would not serve a prison sentence over 18 years on direct appeal.
Because the movant failed to raise this issue on direct appeal, his claim pursuant to 28
U.S.C. § 2255 is procedurally defaulted.
7
Case 6:18-cv-02070-LRR-MAR Document 3 Filed 12/03/19 Page 7 of 9

Accordingly, because the movant’s claim is procedurally defaulted, his § 2255
motion shall be dismissed. Further, the movant’s Motion for Status Conference shall be
denied as moot.
IV. CERTIFICA TE OF APPEALABILITY
In a 28 U.S.C. § 2255 proceeding before a district court judge, the final order is
subject to review, on appeal, by the court of appeals for the circuit in which the
proceeding is held. See 28 U.S.C. § 2253(a). Unless a circuit justice or judge issues a
certificate of appealability, an appeal may not be taken to the court of appeals. See 28
U.S.C. § 2253(c)(1)(A). A district court possesses the authority to issue certificates of
appealability pursuant to 28 U.S.C. § 2253(c) and Federal Rule of Appellate Procedure
22(b). See Tiedeman v. Benson, 122 F.3d 518, 522 (8th Cir. 1997). Under 28 U.S.C.
§ 2253(c)(2), a certificate of appealability may issue only if a movant has made a
substantial showing of the denial of a constitutional right. See Miller-El v. Cockrell, 537
U.S. 322, 335-36 (2003); Garrett v. United States, 211 F.3d 1075, 1076-77 (8th Cir.
2000); Carter v. Hopkins, 151 F.3d 872, 873-74 (8th Cir. 1998); Cox v. Norris, 133
F.3d 565, 569 (8th Cir. 1997); Tiedeman, 122 F.3d at 523. In order to make such a
showing, the issues must be debatable among reasonable jurists, a court could resolve the
issues differently, or the issues deserve further proceedings. Cox, 133 F.3d at 569; see
also Miller-El, 537 U.S. at 335-36 (reiterating standard).
Courts reject constitutional claims either on the merits or on procedural grounds.
“[Wjhere a district court has rejected the constitutional claims on the merits, the showing
required to satisfy [28 U.S.C.] § 2253(c) is straightforward:

the [movant] must

demonstrate that reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” Miller-El, 537 U.S. at 338 (quoting Slack v.
McDaniel, 529 U.S. 473, 484 (2000)). When a federal habeas petition is dismissed on
procedural grounds without reaching the underlying constitutional claim, “the [movant
must show], at least, that jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of reason would
8
Case 6:18-cv-02070-LRR-MAR Document 3 Filed 12/03/19 Page 8 of 9

find it debatable whether the district court was correct in its procedural ruling.” Slack,
529 U.S. at 484.
Here, the court finds that it is not debatable that the movant’s claim is procedurally
defaulted. Accordingly, a certificate of appealability shall be denied. If he desires further
review of his 28 U.S. C. § 2255 motion, the movant may request issuance of the certificate
of appealability by a circuit judge of the Eighth Circuit Court of Appeals in accordance
with Tiedeman, 122 F.3d at 520-22.
V. CONCLUSION
In light of the foregoing, it is hereby ORDERED:
(1) The Motion pursuant to 28 U.S.C. § 2255 (docket no. 1) is DENIED;
(2) The Motion for Status Conference (docket no. 2) is DENIED as moot; and
(3) A certificate of appealability shall NOT ISSUE.
IT IS SO ORDERED.
DATED this 3rd day of December, 2019.

imph r.

reAde< judge
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF IOWA

9
Case 6:18-cv-02070-LRR-MAR Document 3 Filed 12/03/19 Page 9 of 9

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

*

No: 20-1184
Jesus Adam Lizarraga
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the Northern District of Iowa - Waterloo
(6:18-CV-02070-LRR)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
August 21, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1184

Page: 1

Date Filed: 08/21/2020 Entry ID: 4947545

